0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in Great Lakes
Minerals, LLC v. State of Ohio, Joseph W Testa, and
Jeff McClain, Tax Commissioner of Ohio was sent via
Next Day Service to the U.S. Supreme Court, and Next
Day Service and e-mail to the following parties listed
below, this 10th day of July, 2020:
Daniel W. Fausey
Ohio Attorney General's Office
150 East Gay Street, 23rd Floor
Columbus, OH 43215
(614) 644-8646
Daniel. Fa usey@O hioAttorneyGeneral. gov
Thomas Edward Madden
Assistant Attorney General
Ohio Attorney General's Office
150 East Gay St., 16th Floor
Columbus, OH 43215
(614) 995-3234

Counsel for Respondents
Thomas D. Bullock
Counsel of Record
Robert V. Bullock
J. Ross Stinetorf
BULLOCK & COFFMAN, LLP
234 North Limestone
Lexington, Kentucky 40507
(859) 225-3939
Tbullock@bullockcoffman.com
Rstinetorf@bullockcoffman.com

Counsel for the Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102

Franklin Square
1300 I Street, NW, Suite 400E

Cincinnati, Ohio 45249

Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on July 10, 2020.

Donna J. Wolf
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Date:

~J~ /0l31MJ

CAf1,,,,

Notary Public

/(j .

~

[seal]

JOHN D. G LLAGHER
Notary Public. State of Ohio
My Commission Expires
Fe ruary 14, 2023

